Report No. DODIG-2012-043              January 20, 2012




    Army Needs to Identify Government Purchase Card
                 High-Risk Transactions
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mi./audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ADA                           Antideficiency Act
AO                            Approving Official
A/OPC                         Agency/Organization Program Coordinator
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
GPC                           Government Purchase Card
OUSD (ATL)                    Office of the Under Secretary of Defense for Acquisition,
                                Technology, and Logistics
PCPMO                         Purchase Card Program Management Office
PCOLS                         Purchase Card On-Line System
U.S.C.                        United States Code
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VA 22350-1500




                                                                                 January 20, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
              ASSISTANT SECRETARY OF THE ARMY (ACQUISITION,
                 LOGISTICS, AND TECHNOLOGY)
              ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Needs to Identify Government Purchase Card High-Risk Transactions
         (Report No. DODIG-2012-043)

We are providing this repoli for review and comment. We considered management comments
on a draft of this report from the Deputy Assistant Secretary of the Army (Procurement) and the
Assistant Secretary of the Army (Financial Management and Comptroller) when preparing the
final repoli.

000 Directive 7650.3 requires that recommendations be resolved promptly. We received
comments from the Deputy Assistant Secretary of the Army (Procurement) on recommendations
made in this repoli. The comments of the Deputy Assistant Secretary were partially responsive.
We request additional comments on Recommendations I,a, I .b and I.d by February 20, 2012.
The Assistant Secretary of the Army (Financial Management and Comptroller) comments were
partially responsive. We request additional comments on Recommendation 2.a.2 by February
20,2012.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to aud-colu@dodig.mil. Copies of the management comments must
have the actual signature of the authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905.


                                           J~ :3~
                                       79/~
                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-043 (Project No. D2010-D000FJ-0202.000)                      January 20, 2012

               Results in Brief: Army Needs to Identify
               Government Purchase Card High-Risk
               Transactions
                                                    PCOLS, to identify high-risk transactions and
What We Did                                         independently monitor the Army’s GPC
The audit objective was to determine whether        program. Army officials believed it was too
Army Government Purchase Card (GPC)                 difficult to implement a data mining tool.
transactions, identified as high-risk by the        PCOLS did identify high-risk transactions that
Office of the Under Secretary of Defense for        did not comply with laws and regulations for
Acquisition, Technology, and Logistics using        using GPCs. However, the Army did not use a
the Purchase Card On-Line System (PCOLS),           data mining program like PCOLS for this
were made in compliance with applicable laws        purpose and missed the opportunity to identify
and regulations. We also assessed whether the       noncompliant transactions that would
Army approving officials detected any of the        potentially prevent misuse of its GPC. This led
transactions that were noncompliant. We             to Army cardholders wasting funds by procuring
reviewed a non-statistical sample of                prohibited items and by splitting purchases that
112 transactions, valued at approximately           did not receive the benefit of competition.
$3.6 million, which PCOLS identified as high-
risk for being noncompliant.
                                                    What We Recommend
What We Found                                       We made recommendations to the Assistant
                                                    Secretary of the Army (Acquisition, Logistics,
PCOLS identified Army high-risk transactions        and Technology) and the Assistant Secretary of
that we determined did not comply with laws         the Army (Financial Management and
and regulations for using Government Purchase       Comptroller). See the complete list of
Cards (GPC). Specifically, 17 noncompliant          recommendations at the end of the finding.
transactions valued at $1.2 million were made
on cards issued by eight Army contracting
offices. The Army detected only one of the          Management Comments and
transactions. Two of the transactions resulted in   Our Response
more than $1 million in potential Antideficiency    The Deputy Assistant Secretary of the Army
Act violations.                                     (Procurement) comments were partially
                                                    responsive concerning the review of previously
The transactions were noncompliant because          identified high-risk transactions. We disagree
cardholders and approving officials responsible     with the Army position to not review potential
for the transactions ignored GPC laws and           violations of laws and regulations. The
regulations to facilitate making desired            Assistant Secretary of the Army (Financial
purchases to meet mission needs. They also          Management and Comptroller) comments were
believed the immediate need for an item             partially responsive. Proper procedures were
overrode GPC business rules.                        not followed in the potential Antideficiency Act
                                                    violation investigation by the U.S. Army Corps
Army GPC officials did not detect 16 of the
                                                    of Engineers. Please see the recommendations
17 noncompliant transactions because the Army
                                                    table on the back of this page.
did not use a data mining system, such as
Report No. DODIG-2012-043 (Project No. D2010-D000FJ-0202.000)          January 20, 2012

Recommendations Table

Management                        Recommendations         No Additional Comments
                                  Requiring Comment       Required
Assistant Secretary of the Army   1.a, 1.b, 1.d           1.c
(Acquisition, Logistics and
Technology)

Assistant Secretary of the Army   2.a.2                   2.a.1, 2.b
(Financial Management and
Comptroller)


Please provide comments by February 20, 2012




                                           ii
Table of Contents
Introduction	                                                                        1     


      Audit Objective                                                                1

      Background                                                                     1     

      Audit Request                                                                  1

      Background of Purchase Card On-Line System for the DoD 

        Government Purchase Card                                                     2

      Applicable Laws and Regulations                                                3

      Internal Controls Over Government Purchase Card Program Transactions           4


Finding. Purchase Card On-Line System and Army High-Risk Transactions                5


      Transactions Must Comply With Laws and Regulations                             5

      Army Government Purchase Card Program Data Mining Process 

       Needs Improvement                                                            11 

      Detecting Improper Transactions in the Army Government Purchase 

       Card Program                                                                 12 

      Conclusion                                                                    12     

      Recommendations, Management Comments, and Our Response                        12 


Appendices

      A.	 Scope and Methodology                                                     16 

             Use of Computer-Processed Data                                         16 

             Use of Technical Assistance                                            17 

             Prior Coverage                                                         17     

      B. Noncompliant Transactions 	                                                18 

      C. Remaining Split Purchases to Circumvent the Single Purchase Limit          19 

      D. Management Comments 	                                                      20 

          Assistant Secretary of the Army (Acquisition, Logistics and Technology)   20 

          Assistant Secretary of the Army (Financial Management and Comptroller)    21

Introduction
Audit Objective
The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
(OUSD[ATL]) requested this audit. Our objective was to determine whether Army Government
Purchase Card (GPC) transactions identified as high-risk by the Purchase Card On-Line System
(PCOLS) were made in compliance with applicable laws and regulations. In addition, we
assessed whether the Army approving officials detected the noncompliant transactions that
PCOLS identified. See Appendix A for a discussion of the scope and methodology and for prior
coverage.

Background
Section 2784, title 10, United States Code (10 U.S.C. § 2784) establishes the GPC Program for
the Department of Defense. In addition, section 2784 requires the DoD Office of Inspector
General to perform periodic audits of the DoD GPC Program to identify:

      potentially fraudulent, improper, and abusive use of purchase cards;
      patterns of improper cardholder transactions, such as purchases of prohibited items; and
      categories of purchases that should be made by means other than the GPC to better
       aggregate purchases and obtain lower prices.

Audit Request
In March 2010, the OUSD (ATL) Purchase Card Program Management Office (PCPMO)
used PCOLS to identify high-risk Army transactions. Of 96,508 Army sponsored transactions
made between June 2009 and November 2009, the data mining application identified
69,014 transactions as high-risk. PCPMO then provided us with 3,451 transactions that the
Deputy Director of the PCPMO believed had the highest risk of being improper.

The 3,451 transactions PCPMO provided were flagged as high-risk for attributes such as close to
card limit, possible split purchase, and weekend or holiday purchase. PCOLS logic helped the
PCPMO to identify the transactions having the highest risk of being improper.

Although technology and tools, like PCOLS, existed to allow the Army to more readily review
and detect improper transactions, at the time of the audit the Army had not committed to using
PCOLS or tools like it. Rather, management relied only on manual reviews to detect
noncompliant transactions.




                                               1

Background of Purchase Card On-Line System for the DoD
Government Purchase Card Program

DoD Office Responsible for the Government Purchase Card Program
The OUSD(ATL) PCPMO is responsible for monitoring and issuing policy for the DoD GPC
Program. In response to internal control and policy compliance issues, the PCPMO assisted in
developing PCOLS, an automated system created to examine and identify high-risk transactions.

The Purchase Card On-Line System
According to DoD documentation, PCOLS is a DoD-wide suite of electronic systems that GPC
officials use to improve the management and accountability within their GPC Program
organizations. PCOLS is comprised of four primary applications: Enterprise Monitoring and
Management of Accounts; Authorization, Issuance, and Maintenance; Data Mining; and Risk
Assessment.

The Enterprise Monitoring and Management of Accounts and the Authorization, Issuance, and
Maintenance applications are used to establish cardholder and approving official’s (AO)
information in the PCOLS database. The Data Mining application reviews, in near real-time,
GPC transactions using software that identifies correlations, patterns, and trends in GPC buying
actions. The Risk Assessment application uses internal controls and measures, coupled with
results from the Data Mining application, to assess and report on the overall “health” of a DoD
organization’s GPC program.

Applicable Laws and Regulations
The April 2009 DoD Charge Card Guidebook (GPC business rules) provides officials with an
overview of the policies and processes for establishing and managing GPC programs, to include
mandatory requirements. The Department of the Army was represented in the preparation of the
guidebook through the DoD Charge Card Integrated Product Team.




                                                2

The table presents the types of noncompliance and violations regarding the transactions we
examined during the audit, and it summarizes laws and regulations applicable to those
transactions.

                        Table. GPC Transaction Noncompliance and Criteria
   Type of
Noncompliance               Definition                              Governing Criteria
Appropriation          The incurring of           Antideficiency Act (ADA): Section 1341, title 31, United
Violation              obligations or the         States Code (31 U.S.C. § 1341), “Limitations on expending
                       making of an               and obligating amounts,” states that cardholders may not
                       expenditure in violation   make and officials may not authorize Government
                       of appropriation law as    purchases that exceed the amount available in the
                       to purpose, time, and      appropriation.
                       amounts specified in       DoD Regulation 7000.14-R, “DoD Financial Management
                       the defense                Regulation,” (DoD FMR), volume 14, chapter 2,
                       appropriation or the       “Antideficiency Act Violations,” states that an ADA
                       appropriation of funds.    violation may occur when a purchase exceeds the amount
                                                  authorized, the purposes authorized for the appropriation are
                                                  violated, or the funds were not available at that time.
Bona Fide Need         Using a fiscal year’s      Bona Fide Needs Rule: 31 U.S.C. § 1502(a), “Balances
Violation              funding for the needs of   available,” states that an appropriation that is limited for
                       the following fiscal       obligation to a definite period is available only for payment
                       year.                      of expenses properly incurred during that limited period and
                                                  is not available after that time.
Legitimate             Purchasing items that      Purpose Statute: 31 U.S.C. § 1301(a), “Application,” states
Government Need        do not comply with         that appropriations must be applied only to the items for
Violation              procurement statutes       which the appropriations were made except as otherwise
                       and regulations or items   provided by law.
                       that are for personal
                       use.
Split Payment*         An inappropriate           10 U.S.C. § 2304, “Contracts: competition requirements”
                       contracting action by      states that a proposed purchase or contract for an amount
                       which a cardholder         above the simplified acquisition threshold may not be
                       makes multiple             divided into several purchases or contracts for lesser
                       payments for a single      amounts to use the simplified procedures for purchasing
                       invoice on existing        property and services based on market research.
                       contracts, each under
                       the single-purchase        Federal Acquisition Regulation (FAR) 13.003, “Simplified
                       limit, so the total        Acquisition Procedures,” “Policy,” states that requirements
                       payment appears to be      aggregating more than the simplified acquisition threshold
                       under the limit.           must not be separated into several purchases that are less
                                                  than the applicable threshold. The simplified acquisition
                                                  threshold was $100,000 and the micro-purchase threshold
                                                  was $3,000.

*
 For purposes of this report, the terms “split payment” and “split purchase” fall under the same criteria. The only
difference is that payments are made on contractual documents whereas purchases are distinguished as normal GPC
transactions.




                                                         3

   Type of
Noncompliance                Definition                              Governing Criteria
Split Purchase*        An inappropriate            10 U.S.C. § 2304, “Contracts: competition requirements”
                       contracting action by       states that a proposed purchase or contract for an amount
                       which a cardholder          above the simplified acquisition threshold may not be divided
                       potentially deprives the    into several purchases or contracts for lesser amounts to use
                       Government of the           the simplified procedures for purchasing property and
                       benefits of competition     services based on market research.
                       or avoids other             FAR 13.003, “Simplified Acquisition Procedures,” “Policy,”
                       Government                  states that requirements aggregating more than the simplified
                       procurement policies to     acquisition threshold or the micro-purchase threshold must
                       stay under the single       not be separated into several purchases that are less than the
                       purchase limit.             applicable threshold. The simplified acquisition threshold
                                                   was $100,000 and the micro-purchase threshold was $3,000.
Supporting             Maintaining and             31 U.S.C. § 1501, “Documentary evidence requirement for
Documentation          keeping available the       Government obligations,” states that an amount must be
                       documentation that          recorded as an obligation of the U.S. Government only when
                       supports a transaction.     supported by documentary evidence.
                                                   DoD FMR, volume 10, chapter 23, “Purchase Card
                                                   Payments,” implements 10 U.S.C. § 2784 “Management of
                                                   purchase cards,” which requires that records of each GPC
                                                   transaction be retained in accordance with standard
                                                   Government policies. The DoD FMR requires that
                                                   documentation be maintained at all levels to support the
                                                   integrity of the GPC program and facilitate the reconciliation
                                                   and payment of GPC transactions.
*
 For purposes of this report, the terms “split payment” and “split purchase” fall under the same criteria. The only
difference is that payments are made on contractual documents whereas purchases are distinguished as normal GPC
transactions.

Internal Controls Over GPC Program Transactions
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, implements DoD policy, pursuant to Section 1101, 3512, and 7501 of Title 31, United
States Code, and Office of Management and Budget (OMB) Circular No. A-123,
“Management’s Responsibility for Internal Control,” December 21, 2004, that a managers’
internal control program be established to review, assess, and report on the effectiveness of
internal controls in DoD.

The Army did not have an automated control system in place to assist in the detection of GPC
transactions that did not comply with laws and regulations. Additionally, the Army internal
control process did not detect transactions that PCOLS identified as having a high-risk of
noncompliance with laws and regulations. We will provide a copy of the final report to the
senior official in charge of internal controls for the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology).




                                                         4

Finding. Purchase Card On-Line System and
Army High-risk Transactions
PCOLS identified Army high-risk transactions that we determined did not comply with laws and
regulations for using Government Purchase Cards (GPC). Specifically, 17 noncompliant
transactions valued at $1.2 million were made on cards issued by eight Army contracting offices.
The Army detected only one of the transactions. Two of the transactions resulted in more than
$1 million in potential Antideficiency Act violations.

The transactions were noncompliant because cardholders and approving officials responsible for
the transactions ignored GPC laws and regulations to facilitate making desired purchases to meet
mission needs. They also believed the immediate need for an item overrode GPC business rules.

Army GPC officials did not detect 16 of the 17 noncompliant transactions because the Army did
not use a data mining system, such as PCOLS, to identify high-risk transactions and
independently monitor the Army’s GPC program. Army officials believed it was too difficult to
implement a data mining tool.

PCOLS did identify high-risk transactions that did not comply with laws and regulations for
using GPCs. The Army did not use a data mining program like PCOLS for this purpose and
missed the opportunity to identify noncompliant transactions and potentially prevent misuse of
its GPC. This led to Army cardholders wasting funds by procuring prohibited items and by
splitting purchases that did not receive the benefit of competition.


Transactions Must Comply With Laws and Regulations
PCOLS identified GPC transactions that were high-risk and did not comply with laws and
regulations at eight Army contracting offices. Of the 112 transactions reviewed, 17 were
noncompliant. See Appendix B for details on the transactions by type of noncompliance and by
contracting office. The following sections provide details on specific noncompliant transactions
identified in our review.

Transaction That Split Purchases, Failed to Meet the Bona Fide Need
Rule, and Resulted in a Potential Appropriation Violation
One high-risk transaction that PCOLS identified as a possible split purchase was made by a
3rd Infantry Division cardholder located at Fort Stewart, Georgia.1 The transaction was one of a
group of transactions worth $1,023,519 that were intentionally split for each to be within the
cardholder’s GPC purchase limit of $3,000.



1
  The cardholder was supported by the Mission and Installation Contracting Command (MICC) Contract Support
Element. MICC provides contracting capabilities and services for customers that include the U.S. Army Installation
Management Command, U.S. Army Forces Command, the U.S. Army Training and Doctrine Command, the
U.S. Army Reserve Command, and the U.S. Army Medical Command. MICC uses seven contracting centers and
35 contracting offices throughout the continental United States, Alaska, and Puerto Rico.

                                                        5

Split Purchase. The cardholder at Fort Stewart made an improper split purchase with
Integrity Products of Sarasota, Florida, for the purchase of 267 long-sleeve shirts with an
Army unit logo, valued at $2,994. This was one of a series of noncompliant transactions made
by the cardholder at the end of FY 2009. The transaction for shirts did not comply with
10 U.S.C. § 2304 and FAR 13.003. (See the table in the Introduction for criteria summaries.)

The billing statement for the shirt purchase showed the cardholder made 20 additional purchases
with Integrity Products on the same day as our sample transaction, September 28, 2009. Each of
these transactions was under $3,000, with a total value of $53,687.

                           The entire billing statement for the period through October 19, 2009,
    …the cardholder made
                           showed the cardholder made 405 purchases valued at $1,023,519
    405 purchases valued
                           using 29 different vendors to obtain more than 57,000 items. The
    at $1,023,519 using
                           cardholder stated that all of these purchases were to replenish the 3rd
    29 different vendors to
                           Infantry Division Office of Retention inventory of gift items to be
    obtain more than
                           given out as recognition items2 for recruitment and retention
    57,000 items.
                           purposes. All of these year-end purchases were split purchases
because they were made to fill a single requirement, to replenish gift items.

Breakdown of the GPC Control Process for Split Transactions. The Army GPC control
process was effective in identifying these Fort Stewart transactions as split purchases.
Specifically, during the annual review of the 3rd Infantry Division Retention Office AO account
for transactions that occurred during 2009, an Alternate Agency/Organization Program
Coordinator (A/OPC) identified the split purchases. However, the A/OPC provided a statement
to us that the former head of the contracting office instructed the A/OPC and Alternate A/OPC to
take no corrective or punitive action against the AO or the cardholder and to continue to let the
cardholder split purchases. She could not provide documentation that the head of the contracting
office gave her that instruction or why.

Potential Appropriation Violation and Bona Fide Need Violation. Fort Stewart personnel
also potentially violated the ADA because they used FY 2009 appropriated funds and could not
demonstrate that the items were to be used in FY 2009 and appeared to be for FY 2010. The
practice of using a fiscal year’s funding for the needs of the following year results in a violation
of the Bona Fide Needs Rule.

Documentation showed that similar multiple split purchases occurred again in September 2010.
Personnel at Fort Stewart used large amounts of year-end FY 2010 funds to purchase gifts. In
accordance with DoD Financial Management Regulation (FMR), volume 14, chapter 3,
“Preliminary Reviews of Potential Violations,” the Assistant Secretary of the Army (Financial
Management and Comptroller) needs to initiate a preliminary review of the purchase of the
recognition items as a potential ADA violation.


2
  Recognition items are defined in 10 U.S.C. § 2261, “Presentation of recognition items for recruitment and retention
purposes,” as items of nominal or modest value (less than $50), such as a commemorative coin, medal, trophy,
badge, flag, poster, painting, or other similar item designed to recognize or commemorate an individual’s service in
the Armed Forces.

                                                         6

Other Issues Identified. In the last month of FY 2009, the Fort Stewart Budget Office provided
more than $1 million of additional funds to the Retention Office with instructions that all of the
money would have to be spent by September 30,
2009.                                                     …the Fort Stewart Budget Office
                                                          provided more than $1 million of
The AO allocated the additional funds to the various      additional funds to the Retention
 rd
3 Infantry Division brigades. However, the AO did         Office with instructions that all of
not establish a Government need for the items             the money would have to be spent
purchased; instead, he purchased as many items as he      by September 30, 2009.
could to use up the funding made available.

The cardholder and the AO did not properly scrutinize the purchase requests received from the
brigades. The following issues resulted:

   	 Six transactions, valued at $14,353, were made for 835 items shipped to an individual’s
      personal address rather than to a Government office or facility. The items included
      dominoes, laptop bags, knives, shirts, flashlights, fishing lures, and fishing packs.

   	 At least five transactions valued at $14,979, were made for 217 individual items that
      exceeded the $50 threshold for each gift.

   	 More than 57,000 items were procured for distribution throughout the next fiscal year.

   	 Highly pilferable items were purchased that may be considered desirable for personal use
      or resale, such as knives, Nike® golf shirts, Adidas® wind jackets, and Titleist Pro V1®
      golf balls.

   	 Inventory controls were not maintained to show:
         o	 what was bought,
         o	 when it was bought,
         o	 to whom it was given,
         o	 when it was provided, and
         o	 why it was given to them.

   	 Items were stored in outdoor storage containers, which were not climate controlled and
      may not have been suitable for storing the items.

   	 There were no limits on the amount of items an individual could receive.

Management Actions. We briefed the Director, Mission Support Element for the 3rd Infantry
Division and a representative from the 3rd Infantry Division Comptroller Office on the results of
our site visit. They agreed with our conclusions and stated they would:

       	 take immediate action to determine exactly what happened with the shipments sent to
          a personal home address,


                                                7

       	 institute a policy to ensure that the Retention Office keeps an inventory and develops
          a requirements matrix to ensure that they are not procuring unnecessary items, and

       	 establish a Blanket Purchase Agreement to prevent future split purchases.

The Chief of Staff of the 3rd Infantry Division also assigned an investigator to review the
shipments that went to a home address. We agreed with the proposed actions.

Transaction That Split Purchases, Failed to Meet Legitimate
Government Need, and Resulted in a Potential Appropriation Violation
One sample transaction, at U.S. Army Corps of Engineers (USACE) Philadelphia District,
Pennsylvania, split a requirement into multiple purchases, failed to meet a Government need, and
potentially violated appropriation laws.

Requirement Split Into Multiple Purchases. A USACE,
Philadelphia District, cardholder purchased dress shirts with       The total cost of $4,465 for
logos for USACE Headquarters leaders to wear to meetings            the 115 shirts exceeded the
with the public and the press. He split the purchase into two       cardholder’s purchase limit
transactions, which circumvented his single purchase limit. He      of $2,500.
purchased 80 men’s shirts for $2,135 on one day and purchased 35 women’s shirts for $2,330 the
following day. The total cost of $4,465 for the 115 shirts exceeded the cardholder’s purchase
limit of $2,500. The transaction did not comply with 10 U.S.C. § 2304 and FAR 13.003.

Legitimate Government Need. The USACE, Philadelphia District, purchase of clothing for
employees did not meet a legitimate Government need and was a potential violation of the
Purpose Statute. USACE personnel said the purchase was for shirts for “headquarters USACE
executive staff to be worn when participating in public meetings and when addressing the press.”
The Comptroller General has examined the propriety of the use of appropriated funds to
purchase clothing for civilian employees. In Comptroller General Decision B-288828, the
Comptroller General stated, “Absent statutory authority, items of wearing apparel are the
employee's personal responsibility, and not the government's, and appropriated funds are not
available for their purchase.”

Potential Appropriation Violation. The USACE, Philadelphia District, cardholder potentially
violated the ADA because the items purchased did not meet a legitimate Government need. In
accordance with DoD FMR, volume 14, chapter 3, the Assistant Secretary of the Army
(Financial Management and Comptroller) needs to initiate a preliminary review of this purchase
of clothing items as a potential ADA violation.

Transactions That Split Purchases to Circumvent the Single
Purchase Limit
Cardholders split seven transactions to circumvent the single purchase limit. Cardholders
made multiple purchases for acquiring goods or services to meet a single requirement, thereby
circumventing their respective single purchase limits, at the Army Medical Command, the
410th Army South Contracting Support Brigade, the Army Nonappropriated Fund, the Army

                                                 8

Material Command, MICC (Fort Huachuca, Arizona, and Fort Bragg, North Carolina),
and USACE, Engineer Research and Development Center, Mississippi. These transactions did
not comply with 10 U.S.C. § 2304 and FAR 13.003.
                                                           …the U.S. Army Medical
For example, at the U.S. Army Medical Command in           Command cardholder made four
Europe, a cardholder split purchases that if combined      purchases of hand sanitizer,
would exceed the single purchase limit of $25,000.         totaling $96,908, from the same
The transaction occurred when U.S. Army Medical            vendor.
Command issued an order for all soldiers to carry hand
sanitizer during a 2009 influenza pandemic. In response to the requirement, in October 2009, the
U.S. Army Medical Command cardholder made four purchases of hand sanitizer, totaling
$96,908, from the same vendor. Each purchase was just under the single purchase limit at
$24,251; $24,300; $24,300; and $24,057. Both the cardholder and the AO stated that they
considered the transactions to be proper because they needed the items immediately. They stated
they believed that the mission requirement superseded the rules for the use of the card.

See Appendix C for details on the remaining six transactions that split purchases to circumvent
the single purchase limit.

Transactions That Did Not Have Required Supporting Documentation
Four transactions were not documented. One transaction, valued at $17,772, occurred at the
409th Army Expeditionary Contracting Command – Europe. The remaining three transactions,
valued at $2,520, $2,500, and $2,482, were generated at three other undetermined MICC sites.

Cardholders, AOs, A/OPCs, and other Army personnel at the 409th and MICC could not locate or
provide supporting documents for the four transactions. Additionally, the Assistant Secretary of
the Army (Acquisition, Logistics, and Technology) A/OPC could not provide us information on
the transactions. Army Regulation AR-715-xx, section 3-10, “File Retention,” states that the
billing officials will maintain these records at their physical locations or at a records holding
area.

PCOLS flagged the four transactions as high-risk for a variety of reasons. One of the
transactions was flagged as having several risks, including a merchant code that is not frequently
used in the account, an amount close to the single purchase limit, and a merchant category code
group type. However, the supporting documentation for the transactions was not provided for
review, so they could not be analyzed for compliance. Because there was no supporting
documentation, the transactions were not in compliance with DoD FMR, volume 10, chapter 23.
Additionally, the noncompliant transactions were in violation of 31 U.S.C. § 1501.

Transactions That Split Payments to Contractors
The cardholder at MICC, Fort Eustis, Virginia, split the payments on two contract invoices to
remain under her single purchase limit. Army Regulation AR-715-xx specifies that the
maximum single transaction dollar limit for payments against existing contracts must be as
identified in the contract. This ensures that the cardholder assigned to make the contract
payment has adequate authority to make it. In this case, the maximum single dollar limit for the
contract payment was not identified in the contract and the cardholder did not have adequate

                                                9

authority to make the invoice payment. Splitting these payments also did not comply with
10 U.S.C. § 2304 and FAR 13.003.

                                          At MICC, Fort Eustis, the cardholder received two
 …the cardholder split the payment
                                          invoices for more than $1,000,000 each for contract
 for the first invoice, which was
                                          modifications involving programmed dry-docking,
 $1,190,715, into two payments,
                                          cleaning, painting, and repairs to an Army Reserve
 one of $590,715 and the other for
                                          vessel. The cardholder was authorized a single purchase
 $600,000.
                                          limit of $1,000,000. The documentation showed that the
cardholder split the payment for the first invoice, which was $1,190,715, into two payments, one
of $590,715 and the other for $600,000. The documentation also showed that the second
invoice, which was for $1,109,103, was also split into two payments, one for $509,103 and the
other for $600,000. The cardholder split the payments to remain below her $1,000,000 single
purchase limit.

The cardholder and the AO indicated they did not believe that splitting the payment was
noncompliant. Subsequent to our audit, the AO requested an increase in the cardholder’s single
purchase limit from $1,000,000 to $2,000,000.

Transactions That Failed to Meet a Legitimate Government Need
Cardholders improperly acquired items that did not meet a legitimate Government need. These
transactions occurred at the offices in the Georgia Army National Guard and the USACE,
Philadelphia District. These purchases did not meet the mission needs intended for the funds
used and violated the Purpose Statute.

A cardholder at the Georgia ARNG purchased executive winged chairs for an adjutant general’s
conference room with funds intended to support the soldier. The funds used were designated for
use by the Army Communities of Excellence Program.

                                 Defense Finance and Accounting Service - Indianapolis
  Purchasing executive           Manual 37-100-09, “The Army Management Structure,” states
  furniture for the adjutant     that Army Communities of Excellence funds are intended to
  general's conference room      “improve the Quality of Life throughout the Army” and to
  did not enhance the quality    enhance the quality of life for the general soldier population or
  of life for the soldier        improve/enhance civilian community image/importance.
  population …                   Purchasing executive furniture for the adjutant general's
                                 conference room did not enhance the quality of life for the
soldier population or enhanced “civilian community importance.”

A cardholder at USACE, Philadelphia District purchased 42 knives valued at $1,595 to give
away as safety awards. The awards program is governed by Department of the Army
Pamphlet 385-10, “Army Safety Program,” which states:

               Leaders are encouraged to develop awards that are tailored to recognize the
               accident prevention accomplishments within their sphere of activity, interest, or
               operation…. Awards will be signed by the organization’s leader and will


                                                      10 

               include, at a minimum, the awardees’ name and the contribution for which the
               award is given.

This purchase did not meet the awards requirements for the Army’s safety program as the
appropriate official did not sign the knives, and neither the awardees' names nor the purposes for
receiving the awards were engraved on the knives. Additionally, two of the knives did not have
any engraving. Further, the purchase was made without the participation or endorsement of the
USACE Philadelphia District Safety and Occupational Office. Without meeting the
requirements expressed by the Army pamphlet, the knives purchase did not meet a mission need
and the purpose of the funds used.

Army Government Purchase Card Program Data Mining
Process Needs Improvement
The 17 transactions that were noncompliant occurred because cardholders ignored the GPC
business rules so the cardholders could make the purchases they needed or wanted to make. The
rate of violations of the laws and regulations in the transactions we sampled indicated to us that a
risky control environment existed in the Army. Army GPC personnel, including A/OPCs and
AOs, did not readily detect the noncompliant use of the GPCs and needed to be more proactive
in attempting to deter these types of purchases.

On November 19, 2008, the Director, Defense Procurement, Acquisition Policy, and Strategic Source
issued a memorandum directing all DoD activities to develop a plan and schedule to implement the
use of PCOLS. On March 3, 2010, the Director issued another memorandum requesting the Army
provide an implementation plan within 30 days because the Army had not implemented the use of
PCOLS.

On April 26, 2010, the Deputy Assistant Secretaries of the Army (Financial Operations) and
(Procurement) sent a memorandum to the Director, Defense Procurement and Acquisition
Policy, informing him that the Army was unable to implement PCOLS at that time.

  The Army GPC program            In the memorandum, the Deputy Assistant Secretaries
  could benefit from the use of a indicated that they were willing to attempt the pilot use of
  data mining tool or a risk      PCOLS in the Army if the system was modified to
  analysis system for GPC         accommodate the Army’s command and accounting
  information because of the      structure. They added that they would continue to work
  size of the program and value   with the Office of the Secretary of Defense (Program
  of its transactions.            Development and Implementation Office) until impediments
                                  to implementation are resolved. At the time of the audit, the
Army was not working to resolve the impediments and had not agreed to use PCOLS.

The Army GPC program could benefit from the use of a data mining tool or a risk analysis
system for GPC information because of the size of the program and value of its transactions. In
FY 2009, the Army GPC program used about 53,300 cards with cardholders making about
4.5 million transactions valued at $4.5 billion. Data obtained from the PCPMO for the fourth
quarter of FY 2010 alone identified 53,300 accounts in the hands of 23,423 cardholders and
accounted for approximately $1.15 billion in transactions. The Army GPC program is the largest

                                                    11 

in DoD. Only two people in the ASA(AL&T) program management office monitor the Army
GPC program. Without using a data mining tool, Army program management personnel could
not readily review the Army-wide program to assess its risks. In addition, without a data mining
process, such as afforded by PCOLS or other data mining systems, Army program management
personnel could not identify high-risk transactions for independent review.

Detecting Improper Transactions in the Army Government
Purchase Card Program
Army AOs and A/OPCs did not detect the errors in the transactions for 16 of the
17 noncompliant transactions in our sample. In some cases, Army personnel responsible for the
transactions disagreed with our determination that the transactions were improper and believed
mission requirements outweighed the rules for use of the GPC.

Noncompliance with GPC business rules in the Army indicates the control structure needs to be
enhanced. To correct this issue, the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) needs to pursue the use of a data mining system, such as PCOLS, to identify high-
risk transactions and independently monitor the Army’s GPC Program. This action would
provide the Army with a proactive process to better monitor compliance.

Conclusion
The improper transactions in our sample violated the United States Code, the FAR, DoD FMR,
and the Army Regulation. The transactions also wasted valuable Government resources and in
certain instances were a misuse of Government funds. The results of our analysis of the Army
high-risk GPC transactions identified by PCOLS demonstrated that there is a useful tool for
capturing better information on improper transactions that the Army GPC Program could use.
Data mining provides an independent transaction review that has the potential to ensure greater
compliance with applicable laws and regulations and decrease the potential for fraud, waste, and
abuse.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Assistant Secretary of the Army (Acquisition, Logistics and
Technology):

      a. Task the eight contracting offices under which the 13 noncompliant transactions
occurred to investigate the transactions, initiate an administrative review, and take
appropriate action to include pecuniary recovery.

      b. Initiate a review of the four transactions for which no supporting documentation
was provided and take appropriate action.

      c. Implement use of a data mining system, such as the Purchase Card On-line
System, to identify high-risk transactions and independently monitor the Army’s
Government Purchase Card Program.
                                               12 

Assistant Secretary of the Army (Acquisition, Logistics and
Technology Response
The Deputy Assistant Secretary of the Army (Procurement) agreed with Recommendations 1.a
through 1.c. However, for Recommendations 1.a and 1.b, she did not state whether she would
task the contracting offices to investigate the 13 noncompliant transactions and the 4 transactions
with no supporting documentation and initiate an administrative review as appropriate. For
Recommendation 1.c, she stated that the Army is conducting a pilot of the Purchase Card On­
line System that will run through March 2012. She further stated that subsequent to the pilot, the
results will be analyzed to determine whether the Purchase Card On-line System should be
expanded throughout the Army.

Our Response
The Deputy Assistant Secretary of the Army (Procurement) comments were not fully responsive.
We request the Assistant Secretary of the Army (Procurement) provide additional comments to
the final report on whether she will task the contracting officers to investigate the 13
noncompliant transactions and the 4 transactions with no supporting documentation, and whether
she will initiate an administrative review.

       d. Review the remaining 3,339 high-risk transactions to ensure that they comply
with laws and regulations for using Government Purchase Cards.

Assistant Secretary of the Army (Acquisition, Logistics and
Technology Response
The Deputy Assistant Secretary of the Army (Procurement) agreed with the findings that
supported the reasoning behind Recommendation 1.d. However, she proposed an alternative
solution to the recommendation. She stated that instead of reviewing transactions from 2009, the
majority involving split requirements, they should move forward by issuing guidance that
specifically addresses split purchases as a key concern and direct additional audits from all
agencies. In addition, she stated that the new guidance will advise Government Purchase Card
program officials to focus their reviews on identification of split requirements.

Our Response
The Deputy Assistant Secretary of the Army (Procurement) comments were partially responsive.
The way forward proposed by the Deputy Assistant Secretary of the Army (Procurement) is a
positive step in the direction of placing significant emphasis on the review and identification of
split requirements that result in split purchases. However, the Army should not ignore possible
violations of laws and regulations that could be uncovered in the review of the remaining
identified high-risk transactions. Therefore, we ask the Deputy Assistant Secretary of the Army
to reconsider her position and provide comments in response to the final report.

2. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller), in accordance with DoD Regulation 7000.14-R, “DoD Financial Management
Regulation,” volume 14, chapter 3, “Preliminary Reviews of Potential Violations,”



                                                13 

      a. Initiate a preliminary review within 14 days of the date of this report to
determine whether a violation occurred for:

               1)     Army’s use of $1,023,519 of FY 2009 Operating and Maintenance
           appropriation to satisfy FY 2010 requirements for the purchase of recognition
           items at Fort Stewart, Georgia.

Assistant Secretary of the Army (Financial Management and
Comptroller Response
The Deputy Assistant Secretary of the Army (Financial Operations) agreed and stated that the
investigation is currently open.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were responsive.
No further comments are required.

              2)     Purchase of $4,465 of clothing at the U.S. Army Corps of Engineers,
           Philadelphia District.

Assistant Secretary of the Army (Financial Management and
Comptroller Response
The Deputy Assistant Secretary of the Army (Financial Operations) agreed with opening the
investigation. He stated that he directed the Headquarters, U.S. Army Corps of Engineers to
perform the investigation and provide a report. The subsequent investigation found there was no
clear violation of the Antideficiency Act and the investigation was closed.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were not
responsive. The U.S. Army Corps of Engineers preliminary review of a potential Anti-
deficiency Act violation concerning its purchase of clothing appears to be contrary to the
standards set forth for preliminary reviews in chapter 14, volume 3 of the DoD Financial
Management Regulation. Paragraph 030202 B of chapter 14, volume 3 of the DoD Financial
Management Regulation states:

“The preliminary investigator or the review team lead shall be an individual with no vested
interest in the outcome of the review. The preliminary investigator or the review team lead shall
also be capable of conducting a complete, impartial, and unbiased review.” Paragraph 030202 B
further states that: “To help assure independence and impartiality during the review, an
investigator or review team lead shall be selected from an organization external to the
installation-level organization being reviewed. DoD Components are required to document that
investigator’s and/or review team leads are free of personal, external, and organizational
impairments and retain the document(s) in the ADA case file.”

Since the U.S. Army Corps of Engineers made the clothing purchase that is the subject of the
potential Anti-deficiency Act violation, the U.S. Army Corps of Engineers had a vested interest

                                               14 

in the outcome of the preliminary review. Therefore, the investigator or review team lead should
also be assigned from an organization outside of the U.S. Army Corps of Engineers in order to
assure independence and impartiality during the review.

We request the Assistant Secretary of the Army (Financial Operations) provide additional
comments to the final report that shows the Army will conduct the preliminary review of the
potential Antideficiency Act violation from an organization outside of the U.S. Army Corps of
Engineers.

      b. Complete the preliminary review within 90 days and provide the results of the
   preliminary investigation to the Office of the Inspector General.

Assistant Secretary of the Army (Financial Management and
Comptroller Response
The Deputy Assistant Secretary of the Army (Financial Management and Comptroller) did not
specifically comment on this recommendation. However, the reviews were promptly begun
before the issuance of the draft report in July and September 2011 respectively.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller) complied with
the recommendation before we issued our official draft report based upon our management
discussion draft provided earlier. No further comments are required for this recommendation.




                                              15 

Appendix A. Audit Scope and Methodology
We conducted this performance audit from April 2010 through January 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

The OUSD(ATL) PCPMO applied the data mining application to 96,508 Army sponsored
transactions that occurred in June through November 2009. The data mining application
identified 69,014 transactions with risk factors of potential impropriety. The PCPMO identified
3,451 transactions as those of greatest concern and submitted them to the DoD OIG for review.
We used the Office of Inspector General’s Quantitative Methods Division to select a randomized
non-statistical3 sample of 112 of the 3,451 transactions to review.

With the assistance of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) and the PCPMO, we requested copies of support documentation for the selected
transactions from the applicable AO, billing official, or the A/OPC. This included:

       itemized receipts from vendors,
       purchase request documentation,
       any prior approval documentation,
       applicable billing cycle statements for transactions,
       any other documents related to the purchases and their purposes.

The documentation received was the basis of our tests of the propriety of the transactions. We
tested whether the transactions met a Government need and were properly executed. We also
tested, if indicated, whether the transactions were part of a split requirement set and, if
applicable, whether prior approval was received. We did not test the full controls of the Army’s
GPC program, such as the A/OPCs’ management of the program, the training provided, and the
appointment processes. We performed limited tests against applicable laws and regulations on
whether Army GPC management personnel identified the improper transactions we identified in
our sample.

Use of Computer-Processed Data
We obtained transaction data for the Army GPC transactions flagged as high-risk by PCOLS
from OUSD (ATL). U.S. Bank, which is the issuing bank of all Army GPCs, provided the data
from the universe to OUSD (ATL). We assessed the reliability of the U.S. Bank data by tracing
data to source documents. Specifically, we compared the U.S. Bank data to sales receipts,
invoices, approval documents, contracts, and billing statements. These assessments showed that
the data was sufficiently reliable for our review.



3
 A randomized non-statistical sample is a sample in which the sample items were drawn randomly but the number
of items in the sample is not sufficient to project to the population.

                                                      16 

Use of Technical Assistance
We relied on the technical expertise of the statistician in the Office of Inspector General’s
Quantitative Methods Division to provide quantitative support for this audit.

Prior Coverage
No prior coverage has been conducted on the use of the Purchase Card On-Line System.
However, during the last five years, the Army Audit Agency has issued 12 reports discussing the
Army’s Government Purchase Card Program.

Army
A-2011-0109-ALC, Arlington National Cemetery Operations-Government Purchase Card

A-2009-0168-ALC, Government Purchase Card Convenience Checks U.S. Army Corps of
Engineers Tulsa District

A-2009-0088-FFP, Followup Audit of Public Works Operations in Korea

A-2008-0295-FFM, Vendor Payment Methods Fort Campbell, Kentucky

A-2008-0200-ALC, Government Purchase Cards – Seattle District, U.S. Army Corps of
Engineers

A-2008-0159-ALC, Contract Modification Process and Government Purchase Card Procedures,
Walla Walla District, U.S. Army Corps of Engineers

A-2007-0202-ALA, Management of Army Card Program, September 5, 2007

A-2007-0159-ALC, Army Purchase Card Program, Department of Emergency Services, Fort
McCoy, Wisconsin

A-2007-0105-ZBI, Emergency and Extraordinary Expense Funds Official Representation Funds-
Limitation .0012, Headquarters, Third U.S. Army, Fort McPherson, Georgia

A-2007-0099-ALC, Time-Sensitive Issue – Potential Antideficiency Act Violation, Audit of
Contracting Operations – White Sands Missile Range

A-2007-0041-FFH, Government Purchase Card, Red River Army Depot, Published
20 December 2006

A-2007-0037-FFH, Followup Audit of Government Purchase Card Management Controls, U.S.
Army Contracting Command




                                                 17 

 Appendix B. Noncompliant Transactions
 Of the 112 transactions reviewed, 17 did not comply with laws and regulations. The table shows
 details on the transactions by type of noncompliance and by contracting office.

 Contracting Office             Cardholder              Approving/Billing Official           Value of                Associated
                             Account Ending In            Account Ending In                 Transaction             Transactions*
          Split Purchase Transaction, Bona Fide Need Violation, and Potential Appropriation Violation
MICC (Ft. Stewart)                   5775                              6910                         $2,994              $1,020,525
         Split Purchase Transaction, Government Need Violation, and Potential Appropriation Violation
USACE (Philadelphia)                 1155                              5923                          2,135                   2,330
                                                 Split Purchase Transactions
MEDCOM                               0891                        4788                               24,300                  72,608
410th                                6878                              2855                         10,948                  24,089
NAF
                                 4890                              2335                          4,250                   5,419
AMC 
                                7919                              2257                          2,558                   3,438
MICC (Ft. Huachuca)                  0385                              6590                          1,575                   3,308
USACE (Mississippi)                  8803                              2007                          2,391                  21,579
MICC (Ft. Bragg)                     9726                              5946                          2,537                   5,093
                                    Transactions With No Supporting Documentation
409th                                4347                              3051                         17,772                          -
MICC (Unknown Site)                  3860                              7904                          2,520                          -
MICC (Unknown Site)                  7506                              3798                          2,500                          -
MICC (Unknown Site)                  7174                              5069                          2,482                          -
                                                 Split Payment Transactions
MICC (Ft. Eustis)                    2483                              9090                        590,715              600,000.00
MICC (Ft. Eustis)                    2483                              9090                        509,103              600,000.00
                                  Transactions That Did Not Meet a Government Need
ARNG (Georgia)                       5403                              4023                          2,479                          -
USACE (Philadelphia)                 8461                              7018                          1,595                          -
                                                                              Sub Totals       $1,182,854               $2,358,389
                                                                                             Grand Total                $3,541,240
 *
  The “Associated Transactions” Amount is the value of the identified matching split transactions for the sample.
 409th             409th Army Expeditionary Contracting Command - Europe
     th
 410               410th Army Contracting Support Brigade
 AMC               Army Material Command
 ARNG              Army National Guard
 MEDCOM            Army Medical Command
 MICC              Army Mission and Installation Contracting Command
 NAF               Army Nonappropriated Fund
 USACE              United States Army Corps of Engineers




                                                                18 

Appendix C. Remaining Split Purchases to
Circumvent the Single Purchase Limit
In addition to the example at the U.S Army Medical Command in Europe, cardholders at six
additional sites split transactions to circumvent their respective single purchase limits.

A 410th Army Contracting Support Brigade cardholder split purchases that when combined
exceeded the single purchase limit of $25,000. The cardholder made two transactions to
purchase security monitors with a combined cost of $35,037. The AO could not provide
supporting documentation or justification for the split transaction. This is in violation of Army
Regulation AR-715-xx.

An Army Material Command cardholder split purchases that when combined exceeded the single
purchase limit of $3,000. The three transactions were for desiccant that cost $5,996. The
supporting documentation indicated that the transactions were for a single job order. The
cardholder stated that the purchases were made when she first started her position and that she
was unaware that the purchase requests were for the same job order. The AO indicated that he
did not identify the split transaction in his review and that it must have “slipped by.”

An Army Nonappropriated Fund cardholder in Germany split purchases for gift cards to be
awarded as prizes for poker tournaments. This cardholder split the single requirement into seven
transactions totaling $9,669 to avoid the single purchase limit of $5,000.

An MICC cardholder at Fort Huachuca, Arizona, split purchases for food service items at dining
facilities. This cardholder made multiple purchases on the same day with the same vendor
totaling $4,883 to avoid the single purchase limit of $3,000. The Plans and Operations Division
Chief agreed that these purchases were split purchases and stated that the new cardholder for this
account is putting together a Blanket Purchase Agreement for these reoccurring purchases from
the same vendor.

A USACE, Engineer Research and Development Center, Mississippi, cardholder split purchases
for magazine and journal subscriptions for a library. This cardholder split the single requirement
into eleven transactions totaling $23,970 to avoid the single purchase limit of $3,000.

An MICC cardholder at Fort Bragg, North Carolina, split purchases that when combined
exceeded the single purchase limit of $3,000. The four transactions were for printer cartridges
totaling $7,630. The supporting documentation indicated that the purchases had the same
requirement, to provide the same squadron with copy/printer paper and printer cartridges. The
AO stated that he thought nothing was wrong with the split transactions.




                                                19 

Assistant Secretary of the Army (Acquisition Logistics and
Technology) Comments




                    Click to add JPEG file




                                   20
Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




                   Click to add JPEG file




                                  21
